                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-11030009                                                               Page 1 of 1



         We received allegations that a company 1 submitted defective products and provided false
         information to government agencies regarding those products. We reviewed the Company's
         NSF proposals and awards, and compared them to other proposals and awards from other
         government agencies. Our investigation did not find evidence that the allegations raised were
         substantiated or actionable with respect to the NSF awards.

         This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
